U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


             INTERNATIONAL TRADE
                  ADMINISTRATION
    US&FCS Vietnam Is Fully Operational,
       but Some Areas Need Improvement
        Final Inspection Report No. IPE-11798/March 2000




            Office of Inspections and Program Evaluations
March 20, 2000



MEMORANDUM FOR:                 David L. Aaron
                                Under Secretary for International Trade

                                Marjory E. Searing
                                Acting Assistant Secretary and Director General for US&FCS


FROM:                           Johnnie Frazier


SUBJECT:                        Final Inspection Report: US&FCS Vietnam Is Fully Operational,
                                but Some Areas Need Improvement (IPE-11798)

As a follow-up to our January 5, 2000, draft report, attached is the final report on our inspection of
US&FCS’s Vietnam operations. The report includes comments from your February 24, 2000, written
response. A copy of your response is included in its entirety as an attachment to the report.

We found that US&FCS has adequately carried out the steps necessary to develop a presence in
this new market, but a number of challenges remain. We also believe that greater cooperation is
needed in US&FCS Vietnam’s partnering efforts. Our inspection raised concerns about weak
internal control systems and the use of government funds and property, which we believe have
diminished the posts’ efficiency and effectiveness. Lastly, we cited concerns about
underutilized office space in both Hanoi and Ho Chi Minh City.

Please provide your action plan addressing the recommendations in our report within 60
calendar days. If you have any questions or comments about our report, please contact me on
(202) 482-4661 .

We thank the personnel in ITA and US&FCS Vietnam for the assistance and courtesies
extended to us during our review.

Attachment
      U.S. Department of Commerce                                                                                  Final Report IPE-11798
      Office of Inspector General                                                                                             March 2000

                                                       TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

I.        US&FCS Vietnam Is Taking Appropriate Steps to Build Its Commercial Program . . . . . . . . . 5

          A.         US&FCS Vietnam has accomplished much in its first years of operation . . . . . . . . . . . 5
          B.         Management needs to ensure progress on other issues to enhance
                     US&FCS’s effectiveness in Vietnam . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

II.       Greater Cooperation Is Needed in Partnering Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          A.         US&FCS Vietnam has effectively leveraged local trade organizations . . . . . . . . . . . . 14
          B.         Implementation of the US&FCS-State of Florida joint partnership
                     needs improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
          C.         Other partnering efforts would benefit from better communication . . . . . . . . . . . . . . 16

III.      Weak Internal Control Systems Raise Concerns over the Use of
           Funds and Government Property . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

          A.         O&A funds are not adequately safeguarded against fraud, waste, and abuse . . . . . . .                                       18
          B.         Multiple systems used to track overseas collections do not reconcile . . . . . . . . . . . .                                 22
          C.         More supervision over ICASS is needed to ensure expenses are accurate . . . . . . . . .                                      24
          D.         More controls over government property are needed . . . . . . . . . . . . . . . . . . . . . . . . . .                        26

IV.       Underutilized Space in Hanoi and Ho Chi Minh City Is of Concern . . . . . . . . . . . . . . . . . . . 30

          A.         Excess office space should be reduced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
          B.         US&FCS needs guidelines for justifying future office moves . . . . . . . . . . . . . . . . . . 31

IV.       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

APPENDIX I - Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

APPENDIX II - Cost Summary of Various US&FCS Hanoi Relocation Options . . . . . . . . . . . . . . . 38

ATTACHMENT A - US&FCS Response to Draft Inspection Report . . . . . . . . . . . . . . . . . . . . . . . . . 39
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

                                 EXECUTIVE SUMMARY

From 1990 and until last year, Vietnam had one of the fastest growing economies in the world,
with an 8-percent average annual GDP growth rate. This growth was fueled primarily by the
foreign direct investment it received from its Southeast Asia neighbors. In 1997, the United
States was Vietnam’s eighth largest source of foreign direct investment. With the recent
financial crises in Southeast Asia, however, traditional sources of capital in Vietnam have dried
up (e.g., six South Korean banks have closed in Vietnam), and opportunities have been more
available for other foreign sources to enter the financial market. Current domestic Vietnamese
industry and manufacturing are not generally globally competitive, as most major enterprises are
still state run, despite government goals of privatizing. However, with an educational emphasis
on applied sciences and vocational training and a literacy rate of near 90 percent, Vietnam’s
labor force remains attractive to foreign enterprises seeking to develop their own manufacturing
facilities in Vietnam. And with recent progress on reaching a bilateral trade agreement between
the United States and Vietnam, renewed U.S. business interest in Vietnam may be imminent.

However, many challenges still remain for Vietnam and the firms choosing to do business there.
While domestic incomes are growing rapidly (albeit from low levels) and increasing the demand
for consumer goods, the challenges of doing business in Vietnam remain formidable. For
example, the government requirement that domestic laborers working in manufacturing facilities
owned by foreign firms be paid wages denominated in foreign currency exposes foreign firms to
a much greater foreign exchange rate risk on their costs of production than they would face
elsewhere. Corruption, problems with software piracy and other violations of intellectual
property rights, and burdensome product licensing requirements also face foreign firms
considering entry into the market.

Soon after the United States normalized relations with Vietnam in 1995, the U.S. and Foreign
Commercial Service (US&FCS) established a presence in Hanoi, the capital of Vietnam. An
officer operated out of a hotel for a time until US&FCS was able to find a facility. The Hanoi
office first opened in February 1997. In September of the following year, US&FCS opened a
constituent post in Ho Chi Minh City, formerly known as Saigon. At the time of our inspection,
the staffing in Vietnam included 4 foreign commercial service officers, 14 foreign service
nationals, and 2 personal services contractors.

We conducted an inspection of US&FCS operations at both posts in May and June, and
continued follow-up work through August 1999. Overall, we found that both posts were
generally well run. Each post was engaged in new initiatives that may be replicated elsewhere.
For example, in Ho Chi Minh City, management has developed an impressive seminar designed
to educate Vietnamese businesses on the resources available to develop trade between the two
countries. Management has also started an in-house training session for all local staff with
different staff team teaching one another using a correspondence course. In Hanoi, the post has
taken the initiative to organize regional gold keys. While we were pleased to see the efforts to
get the US&FCS program operating in Vietnam, we also found administrative oversight and
controls lacking in other important areas that, if left unaddressed, could diminish the posts’
efficiency and effectiveness. Our specific findings are as follows:

                                                i
U.S. Department of Commerce                                                    Final Report IPE-11798
Office of Inspector General                                                               March 2000

US&FCS Vietnam is taking appropriate steps to build its commercial program. Since
US&FCS first assigned an officer to Hanoi in late 1995, it has carried out much of the activity
that is necessary to establish an effective commercial service presence in a new market. During
its first four years in Vietnam, US&FCS has focused resources on key program activities,
including developing contacts with local government officials, helping to establish
complementary U.S. government programs in Vietnam, and starting to deliver the core US&FCS
program services. Yet many challenges still remain for US&FCS to become an effective
sustainable presence in Vietnam (see page 5).

Greater cooperation is needed in partnering efforts. US&FCS has developed good working
relationships with Vietnamese trade promotion organizations in Hanoi and in Ho Chi Minh
City, leveraging them to help develop contacts with Vietnamese businesses and government
officials. In addition, in Ho Chi Minh City, US&FCS has used the local commercial trade group
to recruit Vietnamese business representatives to participate in the International Buyer Program
and the post’s successful business education seminar for Vietnamese businessmen. In
developing these relationships, US&FCS has proactively and successfully overcome significant
differences in the cultural attitudes and commercial objectives between the staffs of US&FCS
and the two Vietnamese organizations.

In addition, US&FCS has also joined in a partnership with the State of Florida, whereby a
contractor works for the state out of the Hanoi US&FCS office and serves US&FCS interests
part-time. While the relationship between the US&FCS staff and the state representative is
good, there needs to be a clearer understanding of the parties’ roles and responsibilities. The
overall objectives of the joint partnership are consistent between US&FCS and the state, but
how these objectives are reconciled in practice needs greater attention by the US&FCS officers
overseeing the project. For example, almost all of the Florida representative’s work time during
his first six months was spent preparing a Florida-specific cultural event. US&FCS officials
need to task the representative with significant trade promotion work to justify the 25 percent of
the cost of the joint project that US&FCS is paying (see page 14).

Weak internal control systems raise concern over the use of funds and government
property. US&FCS Vietnam has developed a good system to track its finances. However, it
has not implemented proper internal controls needed to prevent fraud, waste, and abuse of
government funds and property at the post. In particular, we found examples of waste and abuse
with operating and administrative funds, especially with respect to charges for telephone calls.
In response to our questioning, approximately $10,400 worth of telephone calls were identified
by the employees as being personal calls. Loose controls in conjunction with the multiple
financial tracking systems in place at the post, the State Budget and Fiscal office, US&FCS, and
ITA create problems reconciling revenue collected from the sale of products and services. More
supervision and oversight of administrative charges levied under the International Cooperative
Administrative Support System (ICASS)–the State Department’s system to distribute overseas
support costs among U.S. agencies at post–are needed to ensure that US&FCS is paying an
appropriate portion of the costs for the services it receives. In addition, lack of controls over the
use of vehicles and cellular phones has led to questionable use of government property (see
page 18).

                                                 ii
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

Underutilized Space in Hanoi and Ho Chi Minh City is of concern. The current office space
in Hanoi and Ho Chi Minh City is more than either operation currently uses, or intends to use
within the next few years. Both facilities were designed and built-out under a “business center”
(or “commercial center-like”) concept, justified by expectations that U.S. businesses and other
partners would collocate with US&FCS on various short-term arrangements. Such expectations
have not been realized, and no planning for further marketing or recruiting is underway.

In addition, US&FCS’s decision to relocate its Hanoi operation could have resulted in
unnecessary facility costs. However, when we began questioning some of these costs, US&FCS
renegotiatied its space requirements. The decision-making process that led US&FCS to make its
initial decision should be improved. The increase in space leased by US&FCS at the new
location, in addition to increased charges for common areas shared with collocated U.S.
agencies and for ICASS overhead, will likely increase the total office cost over the period of the
projected lease. In the future, US&FCS needs to better assess and justify office space
requirements overseas when moving into commercial buildings, especially when US&FCS
determines its space requirements based on plans to share space with potential partners (see page
30).

Our recommendations for addressing these and other concerns appear beginning on page 34.



US&FCS generally agreed with our recommendations in its response to our draft report and
appreciated the team’s balanced assessment of the strengths and weaknesses of one of the
newest commercial offices. US&FCS acknowledges that while the post scored high in
establishing an impressive physical presence in both Hanoi and Ho Chi Minh City, there were
lapses in the day-to-day management of post operations. US&FCS has begun taking corrective
actions to address our concerns.

In response to our recommendations concerning the move to the Rose Garden facility, US&FCS
maintains that it opted for a less conservative course than that advocated by the OIG team.
US&FCS believes that its decision to move was appropriate under the circumstances and was, in
part, forward-looking and influenced by pressures from the embassy and other less tangible
considerations.




                                               iii
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

                                      INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, and the
requirements of the Omnibus Trade and Competitiveness Act of 1988, the Office of Inspector
General conducted an inspection of U.S. and Foreign Commercial Service (US&FCS)
operations in Vietnam. During the review, we visited operations in both Hanoi and Ho Chi
Minh City.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operational issues. One of the main goals of an inspection is to eliminate
waste in federal government programs by encouraging effective and efficient operations. By
asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection. Inspections may
also highlight effective programs or operations, particularly if they may be useful or adaptable
for agency managers or program operations elsewhere. This inspection was conducted in
accordance with the Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency. Our field work in Vietnam was conducted from May 17 to June 4,
1999, followed by several weeks of consultations with the International Trade Administration
(ITA) and US&FCS headquarters offices in Washington. During the review and at its
conclusion, we discussed our findings with the Senior Commercial Officer (SCO), Commercial
Attaché, and Principal Commercial Officer (PCO) in Vietnam; and the Director General of
US&FCS, the current and previous Deputy Assistant Secretary for International Operations, the
Acting Regional Director for East Asia/Pacific, and Deputy Regional Director for East
Asia/Pacific.


                                   PURPOSE AND SCOPE

The purpose of this inspection was to assess the overall operation of US&FCS Vietnam. This
included assessing the development of goals and objectives, determining whether goals are
being achieved, evaluating the economy, efficiency, and effectiveness of the operation, and
assessing the posts’ compliance with applicable regulations and instructions. We also examined
the coordination between the posts and other organizations in achieving the overall goals of ITA
and the Department of Commerce.

In conducting this inspection, we reviewed strategies and plans developed by ITA to increase
exports to this market. We also reviewed the posts’ organizational structures and operating
approaches used in administering activities; interviewed appropriate Commerce and State
Department personnel, as well as other U.S. agency personnel involved in trade promotion;
examined pertinent files and records relating to the posts’ operations; and met or spoke with
officials from U.S. and foreign firms, trade associations, and state and local governments. We
also interviewed a sample of clients by telephone concerning their evaluation of the posts’
products and services.



                                               1
U.S. Department of Commerce                                                              Final Report IPE-11798
Office of Inspector General                                                                         March 2000

                                              BACKGROUND


                                          Vietnam

                                          Vietnam, a country with a population of 77 million, a low-
                                          cost labor force, and rich natural resources, is expected to be
                                          a promising market for U.S. firms in the long term, despite
                                          the recent slowdown in economic growth. In 1995, many
                                          U.S. companies first sought entrance to the Vietnamese
                                          market when diplomatic relations were reestablished.
                                          Presence in this market can be key for U.S. companies
                                          pursuing a long-term business strategy in the Asia-Pacific
                                          region. Opportunities in the energy, power, transportation,
                                          telecommunications, environmental, and education sectors
                                          are promising. The enthusiasm for U.S. products and
                                          services provides a slight advantage for U.S. companies over
                                          their competitors also seeking to establish a strong presence
                                          in the country.

Although the Vietnamese government has made progress in instituting market reforms, much
more is needed. The leaders of this centrally planned economy must continue to make legal,
regulatory, and institutional reforms in order to provide a sound business environment for foreign
firms. Privatization of the state-owned enterprises, as well as issues affecting two-way trade
between the United States and Vietnam, including trade barriers and intellectual property rights,
will also need to be addressed.

After three years of negotiations, the United States and Vietnam reached an agreement in
principle on the terms of a bilateral trade agreement in late July 1999. The agreement would
address a range of trade issues, including access to the telecommunications and financial services
industries, and other matters relevant to U.S. market access including distribution practices. If the
Congress approves the agreement, normal trade relations with Vietnam should resume; however,
this would be subject to annual renewal under the Jackson-Vanik Amendment.1

Commercial relations with Vietnam should continue to move forward. The United States is
ranked in the top 10 for foreign direct investment in the country. U.S. exports reached an all-
time high of $616 million in 1996, when many U.S. companies were anxious to do business
with Vietnam. However, the financial crisis in the Asia-Pacific region, in conjunction with the
slowdown in economic reforms, has greatly reduced U.S. exports to Vietnam recently. If the
trade agreement is finalized, it is projected that U.S. export growth will resume.


        1
           The Jackson-Vanik Amendment requires that certain economic benefits be denied countries that (1) deny
their citizens the right to emigrate; (2) impose more than a nominal tax on emigration, visas, or other documents
required for emigration; or (3) impose more than a nominal tax or other charge on any citizen as a consequence of
the desire to emigrate. However, the President can waive the above requirement.

                                                        2
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000



                                U.S. Exports to Vietnam
                                           (in millions)
                $700
                $600
                $500
                $400
                $300
                $200
                $100
                  $0
                           94       95        96           97      98    Jan-May 99




                       US&FCS Vietnam

                     In late 1995, US&FCS first established a presence in the capital of Hanoi by
                     sending an experienced senior commercial officer to Vietnam to launch a
                     commercial program. In 1997, the Hanoi office was officially opened, and
                     the following year, an office was opened in Ho Chi Minh City. Both
                     operations provide a variety of products and services to U.S. companies in
                     Vietnam as well as to companies seeking to enter the market. Services
                     provided include export counseling sessions which educate companies on
market conditions, advocacy support to assist companies bidding on major projects, and
assistance to trade missions, including setting up key appointments with officials from the
Vietnamese government and business community. US&FCS Vietnam also provides its core
products, including the Agent/Distributor Service, a customized search for qualified agents and
distributors; the Gold Key Service, a custom-tailored service that combines orientation briefings,
market research, and appointments with potential partners; and the International Buyer Program,
a service that recruits foreign buyers and distributors to attend trade shows in the United States
to introduce them to exhibiting firms.

In 1999, US&FCS Vietnam established the United States-Asia Environmental Project (US-AEP)
program in Hanoi, which is a joint program managed by US&FCS and the U.S. Agency for
International Development. The program was first established in 1992 to assist in addressing
environmental degradation and sustainable development issues in a number of nations in Asia
and the Pacific by mobilizing U.S. environmental experience, technology, and services. US-
AEP is an initiative of the Environmental Trade Working Group of the Trade Promotion
Coordinating Committee, a group of 20 federal agencies having export promotion programs and
chaired by the Secretary of Commerce.

US&FCS Vietnam also entered into a partnership with the State of Florida in FY 1999, which
aims to establish a presence for the state in Vietnam and promote trade between Florida and
Vietnam. Under the memorandum of understanding, each signatory is to perform activities to


                                                3
U.S. Department of Commerce                                                                                         Final Report IPE-11798
Office of Inspector General                                                                                                    March 2000

support the project. For example, US&FCS Vietnam is to assist the state in working with the
Vietnamese authorities to register the state, provide office space, and provide a personal services
contractor (PSC) to represent the state. In return, the state is to assist with the recruitment of
trade events in Vietnam, promote US&FCS to its clients, and pay an agreed amount per annum.

At the time of our inspection, US&FCS Vietnam’s resources included a staff of 4 foreign
commercial officers, 14 foreign service nationals (FSNs), and 2 PSCs. In FY 1999, post was
authorized $1.67 million for its operating and administrative (O&A) budget.2 Total operating
expenses were $1.73 million in FY 1997 and reached $1.82 million in FY 1998. Total
operating expenses include O&A expenses, expenses for the salaries and benefits of American
officers, expenses for overseas administrative support services through the International
Cooperative Administrative Support Services System (ICASS), and credit card purchases.



                                                       US&FCS Vietnam
                                                  Total Operating Expenses
           $2,000,000



           $1,500,000



           $1,000,000



            $500,000



                  $0
                                        FY 97                                          FY 98

                               O&A                          ICASS                       Officers' Salaries & Benefits


                               Credit Card Purchases        Total Operating Expenses




       2
           FY 1999 total operating expenses were not available during our fieldwork.

                                                                    4
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

                              OBSERVATIONS AND CONCLUSIONS

I.     US&FCS Vietnam Is Taking Appropriate Steps to Build Its Commercial Program

Since US&FCS first assigned an officer to Hanoi in 1995, it has carried out much of the activity
that is necessary to establish an effective commercial service presence in a new market. During
its first four years in Vietnam, US&FCS has focused its resources on (1) establishing contacts
with local government officials; (2) assisting other complementary U.S. government programs
seeking to establish a presence in Vietnam, such as the Overseas Private Investment Corporation
(OPIC) and the U.S. Trade and Development Agency (TDA); and (3) developing the core
US&FCS commercial program. Yet many challenges still remain as US&FCS seeks to increase
its effectiveness in Vietnam.


A.     US&FCS Vietnam has accomplished much in its first years of operation

US&FCS Vietnam developed effective relationships with host government agencies

In September 1995, prior to the arrival of the new ambassador, US&FCS assigned a relatively
high-level commercial officer to Vietnam to establish a commercial program there. The officer’s
experience in the foreign service and his familiarity with Vietnam through prior military service,
contributed greatly to his ability to set up the program in a difficult environment. For instance,
the embassy was not fully up and running, and relationships between the two countries were in
the early stage of development. In 1997, US&FCS sent two additional officers to assist the SCO
in setting up the operations–a former regional director from headquarters with prior experience
in Vietnam while working for the State Department, and a more junior officer with experience at
headquarters, in a domestic field office, and on Capitol Hill.

Together, these three officers accomplished much in the early years. In addition to opening the
offices in Hanoi and Ho Chi Minh City and hiring staff, they were able to develop effective
working relationships with government officials from the Vietnamese Ministries, government
officials with other U.S. programs, and representatives from various industries and trade
organizations. These organizations included the Ministries of Trade, Industry, and Planning and
Investment, public utilities and state-owned enterprises, and other Vietnamese organizations,
such as the Chamber of Commerce and Industry in Vietnam (VCCI), and the National Union of
Small and Medium-sized Enterprises. According to our interviews, some of these relationships
were important in the early development of trust between the two governments and in helping
lay the groundwork for other U.S. government agencies to develop their own relationships with
the Vietnamese.

According to a senior VCCI representative and others we interviewed, US&FCS officials have
always recognized the importance of educating Vietnamese government officials about
American business practices and markets rather than simply advertising or marketing U.S.
businesses. This was contrasted with the practices of US&FCS’s counterparts in many other



                                                5
U.S. Department of Commerce                                                    Final Report IPE-11798
Office of Inspector General                                                               March 2000

foreign governments represented in Vietnam, and reportedly has contributed to the credibility of
US&FCS officers in the eyes of Vietnamese officials.

US&FCS Vietnam focused early on the establishment of other
complementary programs to support U.S. exports

One of US&FCS’s earliest activities in Vietnam was the encouragement and support of other
key U.S. trade organizations in opening their own operations or establishing a presence in
Vietnam. In 1996, the SCO approached the TDA about developing a presence in Vietnam . The
first TDA project with Vietnam, which began in October 1996, provided assistance to six
Vietnamese officials from the Ministry of Fisheries to visit U.S. shipbuilding and fish
processing companies interested in entering the Vietnamese market. US&FCS helped usher the
Vietnamese applications for many of the 13 subsequent TDA projects through the TDA review
process. They covered a variety of projects, including feasibility studies and visits to the U.S.
by Vietnamese officials from various sectors. TDA officials reported a great deal of satisfaction
with the support they have received from US&FCS Vietnam.

US&FCS officials also played a significant role with OPIC, a U.S. government agency that
provides political risk insurance, among other services, for overseas investments by U.S.
companies. US&FCS officials encouraged OPIC to negotiate and sign a bilateral agreement
with Vietnam in March 1998. As of March 1999, political risk insurance registrations for nearly
30 projects had been approved by OPIC, representing potential U.S. investment of more than
$3.1 billion. Furthermore, according to officials at the Export Import Bank of the U.S. (Ex-Im
Bank) and others, US&FCS staff in Vietnam have provided much support to Ex-Im Bank’s
attempts to get its own framework agreement signed with Vietnam. Ex-Im Bank officials
reported confidence that they will get an agreement with Vietnam signed this year so that they
can begin supporting U.S. trade there.

US&FCS’s relationship with the American Chamber of Commerce in Vietnam (AmCham) also
was excellent. In Hanoi, US&FCS representatives have been key partners in the establishment
of AmCham. Until AmCham was formally registered and recognized as a business association
in late 1998, US&FCS served as the primary liaison between its founding members and the
Vietnamese government. For example, US&FCS officials as well as other embassy officials
have attempted to coordinate U.S. industry positions on various issues affecting trade and
present them to different ministries.

US&FCS Vietnam leveraged resources to build its program

In the first four years of operation, US&FCS has leveraged outside resources to build the
program. For example, US&FCS has contracted out all market research reports, a core element
of the commercial program, because of the demand for quality research on this new market and
the limited writing skills of the FSN trade specialists and assistants. During interviews, the staff
indicated to us that the first SCO in Vietnam wanted to produce ample reports on key
Vietnamese sectors for U.S. businesses because there was not much research available on this
market. According to US&FCS’s Office of Export Promotion Services and our review of a


                                                 6
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

sample of those market research reports (e.g., Industry Sector Analyses, or ISAs), the contracted
reports have generally been of high quality. However, some representatives of U.S. businesses
in Vietnam questioned the usefulness and quality of some of the market research. In addition, it
was also brought to our attention that management should review the industries that are selected
for reporting each year as some topics might not be a high priority or some industries might not
change enough to warrant a new ISA each year.

In the last year, the FSN trade specialists and assistants have become more comfortable with
their use of English and the general research needs of U.S. businesses, and began writing
International Market Insights (IMIs), which are brief highlights of market conditions or
opportunities in Vietnam. At the time of our inspection, the second SCO told us that he
intended to require the staff to begin writing some ISAs next year. However, since the SCO
retired from the foreign service in September 1999, we believe the new SCO will need to review
this issue.

At times of peak activity, US&FCS has also hired temporary local employees to help arrange
appointments for Gold Key clients and to provide logistical support during trade missions and
other events. In Ho Chi Minh City, US&FCS hired the Foreign Trade Development
Corporation (FTDC), a local government organization that promotes foreign trade, to recruit and
register local Vietnamese businesses for the International Buyer Program and for a business
education seminar that the post developed, the Business USA Seminar.

The Business USA Seminar is a multimedia training class for Vietnamese businessmen on how
to obtain information on U.S. businesses over the Internet, and how to use the Thomas Register,
copies of which are provided as part of the seminar. In addition to the benefits from the
widespread media coverage of the seminars thus far, the seminars effectively enable many
potential business partners of U.S. firms to identify and contact U.S. businesses directly without
having to rely on US&FCS and its internal commercial library resources to carry out the basic
research. The initial seminar, held in March 1999 with 200 participants, was so popular that the
post conducted another one in May and a third in July and still had to turn away dozens of
participants. The post reports that one of the effects of these seminars has been a reduction in
the number of basic telephone inquiries it receives. In the next year, US&FCS Ho Chi Minh
City intends to conduct seminars in Hanoi, Vung Tau (located in the south), and other cities to
reach out to other areas but also to market its products and services.

US&FCS Vietnam is also leveraging resources outside Vietnam by taking the lead on
coordinating regional Gold Keys among the US&FCS posts in the Association of Southeast
Asian Nations (ASEAN) countries and Hong Kong. This initiative aims to develop and market
regional Gold Keys, which will provide additional opportunities for U.S. businesses to explore
more than one market in the region. Each ASEAN post is to send US&FCS Vietnam their
respective scheduled Gold Key Service clients twice a month. US&FCS Vietnam prepares a list
of these clients and then circulates the list to all ASEAN posts for each to determine whether it is
appropriate to approach the client about extending its Gold Key Service visit to their country as
well. The first such list was circulated in May 1999.



                                                 7
U.S. Department of Commerce                                                            Final Report IPE-11798
Office of Inspector General                                                                       March 2000

Finally, US&FCS Ho Chi Minh City is further leveraging its own staff by using them to team-
teach the FSN correspondence course, which introduces the local staff to various US&FCS
programs and operations. A commercial officer prepared presentations of the first two lessons
of the course, but has assigned the teaching of the remaining lessons to the local staff to teach
each other. In addition to helping them practice their public speaking in English, the exercise
also provides the FSNs experience in preparing presentations with graphics software, reinforces
teamwork, and ensures that the staff who are presenting the material obtain a deep
understanding of it.

US&FCS Vietnam has implemented its core program

In the first four years of operation, US&FCS Vietnam has established a high level of name
recognition in country as well as with trade organizations in Washington. In addition to
establishing a presence with the business community and Vietnamese authorities, the post has
launched its core products and services. This includes the free export counseling sessions and
advocacy support available to U.S. companies as well as the user fee products, such as the Gold
Key Service, Agent/Distributor Service, and International Buyer Program. The post has also
been very busy assisting and setting up a variety of seminars, trade missions, and events. For
instance, in 1997, post hosted four events with a new staff: a multi-state catalog exhibition,
PetroVietnam 97, a seminar on official development assistance, and a standards delegation. In
1998, the post participated in six trade missions, two trade fair certifications, and a few
conferences. In 1999, the post’s level of activity in events and missions slowed somewhat but it
was more attributable to the current market realities. However, the post did establish the
Business USA seminar this year as discussed above.

Although the post has contracted out much of its market research reporting responsibilities to
outside contractors, it has produced a good range of products considering the level of
experience of the new staff. The table below summarizes the production statistics of the post by
fiscal semester, according to data in the post’s quarterly reports.

               US&FCS Vietnam Outputs, by Type and Fiscal Semester
                                                      FY 97      FY 98      FY 98       FY 99
          OUTPUT                                      2nd half   1st half   2nd half    1st half
          Gold Key Services                             12          7         17          15
          Agent/Distributor Services                     2          2          1           3
          Industry Sector Analyses                      11         11         20          17
          International Market Insights                 35         41         96          59
          Source: US&FCS Vietnam Quarterly Reports.


In determining client satisfaction with the post’s products and services, we interviewed clients in
Vietnam and the United States who purchased or received such services. According to nearly
everyone we spoke with about US&FCS Vietnam’s export counseling sessions, the post was
given high marks for providing an informative and realistic picture of the market conditions.
For some of the user fee products, we sampled over one-third of the 14 clients who purchased an


                                                       8
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

Agent/Distributor Service and over one-fifth of the 44 clients who purchased the Gold Key
Service from the post through May 1999. We asked clients about the quality and timeliness of
the products and services they received. We succeeded in reaching and obtaining answers from
eight of those businesses.

While the effectiveness of the US&FCS services could not generally be measured, primarily
because most of the businesses contacted had yet to take action on their respective research
results, the quality of and customer satisfaction with the Agent/Distributor Service and Gold
Key Service generally received high ratings from the clients. Several of the clients reported
having used services of US&FCS posts elsewhere in the world and compared those from the
Vietnam posts favorably to those obtained elsewhere. However, a few clients mentioned the
need for more communication with the post about their products and/or industry before
traveling to Vietnam so that the trade specialists and assistants have a better understanding of
the company’s needs.

We met with all of the staff individually and found that their morale was generally good. Staff
reported working well on teams, and we observed effective communication between the staff in
Hanoi and Ho Chi Minh City. For example, during regularly scheduled weekly conference calls
between the two offices, we noted that local staff appeared uninhibited about reminding staff,
including officers, at the other post about pending deadlines and other work that needed to be
passed between the posts. During individual interviews, staff were able to discuss the work of
the other post, at times mentioning each other with familiarity even though most staff between
the offices had only met once. The post maintains frequent e-mail contact with US&FCS
headquarters, and a detailed biweekly report by US&FCS Vietnam describing all events,
contacts, and other significant activity by each staff member effectively helps keep staff,
Washington-based officials at Commerce and State, and officials in the rest of the embassy
informed of what the post is working on.

Factors affecting development of US&FCS Vietnam program

US&FCS has developed a solid core program in Vietnam, and several factors contributing to
that success should be highlighted. During its first four years, the post has received an average
of $1.3 million per year in funding for its O&A functions, in addition to the over $100,000 on
the initial Hanoi office build out and about $32,000 on the subsequent renovation of the Hanoi
office, and about $131,000 to build out the Ho Chi Minh City office. This level of funding
ranks Vietnam among the highest cost per officer of countries with US&FCS programs of this
size. These funds allowed the post to operate in a market that, at times, has had extremely high
costs of doing business. But the funds also enabled the post to contract out almost all of its
market research since it first opened.

The skills and prior experience of the officers assigned to the post have generally been
appropriate for building up a new office. On the one hand, the initial SCO was recognized for
his strengths on policy issues, which were key to opening doors for other U.S. trade agencies to
establish a formal presence in Vietnam. On the other hand, the second ranking commercial
officer had extensive experience with the internal administration of various overseas posts and
at headquarters as a US&FCS regional director. He helped the post develop sound

                                                 9
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

administrative systems, which are discussed later in this report, and build out the US&FCS
offices in Hanoi and Ho Chi Minh City. Along with a more junior officer, who was often
praised for his business knowledge and ability to get things done, these officers provided a good
blend of skills required to develop a new program.

After the initial SCO left the post in 1998, he was replaced by a senior officer with extensive
experience managing constituent posts. The second SCO began focusing on developing the
core US&FCS program by implementing staff training, increasing office-wide lateral
communication, and clarifying individual responsibilities. His ability to strengthen the
US&FCS program from within was lauded by some of his staff, as well as by officials elsewhere
in the embassy. US&FCS should keep in mind the specific skills appropriate for building up a
new program wherever it might open new offices in the future, and ensure that the officers it is
assigning to such a new program have those skills.


B.     Management needs to ensure progress on other issues
       to enhance US&FCS’s effectiveness in Vietnam

As noted above, US&FCS Vietnam has accomplished much in the few years it has been in
existence. While our inspection cites many achievements, we also highlight areas where we
believe management will need to direct its attention in the future as the operation matures.
Management will also need to follow through on many initiatives US&FCS has begun in order
to further develop the commercial program in Vietnam.

We believe that US&FCS Ho Chi Minh City will need to do more outreach among the local U.S.
business community. The market in the south is very commercially oriented, and US&FCS can
play an important role in assisting U.S. companies penetrate this market. However, some local
businesses are still not fully aware of the post’s products and services and what US&FCS can do
for them. Some of those we interviewed in the American business community had arrived
before US&FCS Ho Chi Minh City was established, and were unaware of what US&FCS could
offer them, in part because they had not had to rely on US&FCS thus far.

US&FCS Ho Chi Minh City should also continue building a closer relationship with the
AmCham and other partner organizations. For example, when recruiting candidates through
local commercial promotion agencies for the International Buyer Program in the past year,
US&FCS Ho Chi Minh City submitted the names of a large number individuals who were
denied visas by the U.S. Consulate. According to our interviews with officials from US&FCS,
the embassy, and the consulate, confusion among local partners and applicants about the nature
of the program and the procedures for obtaining the appropriate visa led to the submission of
inaccurate information on some of the visa applications. All Ho Chi Minh City visa
applications for the International Buyer Program were then rejected. Mutually acceptable roles
for US&FCS Ho Chi Minh City and its partners, in recruiting or screening International Buyer
Program applicants, need to be developed with the Ho Chi Minh City Consulate before this
program can become an effective tool in matching U.S. companies with Vietnamese buyers.



                                               10
U.S. Department of Commerce                                                Final Report IPE-11798
Office of Inspector General                                                           March 2000

The new SCO and the PCO in Ho Chi Minh City will need to concentrate on encouraging FSNs
to develop key contacts. One possible suggestion is for FSNs to use more of the representation
funds to develop these contacts. For example, FSNs could invite their counterparts from the
various ministries to lunch to further promote U.S. commercial interests. We noted that a
majority of the representation funds are being used by the officers on gatherings primarily with
American businesses and AmCham.

In the long term, both US&FCS Hanoi and Ho Chi Minh City will need to focus some attention
on promoting and supporting U.S. commercial activity in regions outside the metropolitan areas
of these two cities. Many individuals we interviewed cited the potential for U.S. businesses in
other regions within Vietnam (e.g., DaNang, Mekong Delta, and Hue). At the time of our
inspection, the SCO and PCO recognized that their products and services may be needed in
other provinces and planned to visit these areas in the future. The new SCO will need to be
made aware of the need to do more outreach. As noted previously, US&FCS Ho Chi Minh City
and Hanoi plan to take the Business USA Seminar on the road to other regions, and we think
this could be an effective vehicle for visiting other areas, developing new contacts there, and
documenting the market potential in those areas. Programs other than the Business USA
Seminar may be needed to expand services beyond Hanoi and Ho Chi Minh City.



US&FCS agreed with our first recommendation to increase the visibility of its operations in Ho
Chi Minh City through more outreach and marketing, and has taken steps to address this. Both
officers in Ho Chi Minh City have become more involved with AmCham and have held
meetings with its Executive Director to discuss increased cooperation. In addition, the new
SCO intends to visit Ho Chi Minh City every six to eight weeks and plans on meeting with
AmCham and its members each time.

In response to our second recommendation, US&FCS agreed to work with the Vietnamese
government and Consulate officials in Ho Chi Minh City to develop mutually acceptable terms
for pre-screening International Buyer Program clients and has taken steps to address our
concerns. US&FCS Ho Chi Minh City has included a consular module in its Business USA
outreach program to better inform Vietnamese businesses on the proper procedures for obtaining
visas to the United States. The Chief of the Consular Section intends to participate in the
Business USA outreach program. Lastly, the commercial officers agreed to work more closely
with the Consular Section and thought that the Consulate’s new visa referral system may be
helpful in that the PCO or SCO will be able to request that certain applicants receive special
consideration.

US&FCS also agreed with our third recommendation to develop a long-term plan to target
regions outside of Hanoi and Ho Chi Minh City and intends on using the Business USA
program to further American commercial interests throughout Vietnam. The response stated that
commercial officers had made visits to other cities since May 1999. In the action plan, US&FCS
should elaborate on which office (Hanoi or Ho Chi Minh City) will be responsible for covering
the most promising markets elsewhere in Vietnam and when each office intends to visit these
markets.


                                               11
U.S. Department of Commerce                                                     Final Report IPE-11798
Office of Inspector General                                                                March 2000



Internal operations will need greater management attention

Our inspection also noted that both US&FCS Hanoi and Ho Chi Minh City may need to refine
their internal operations in order to get the most out of both financial and human resources. Of
high priority, we believe management should continue to transfer a majority of the market
research responsibilities (e.g., writing IMIs and ISAs) to the FSN and PCS staff. As noted
above, the first SCO decided to contract out all market research responsibilities in the early years
of operation because of the need to produce ample reports on the Vietnamese market and the
FSNs’ limited English writing skills. However, we believe it may not be justifiable to continue
allocating such a large amount of the funds from the authorization for direct program support to
market research contracts. US&FCS has done much to further its initial goal of promoting
Vietnam’s market potential. Hanoi and Ho Chi Minh City are fully staffed now, and program
priorities are shifting. We note that the post obligated $155,037 for market research contracts in
FY 1998, representing 31 percent of direct program support expenditures.

At the time of our visit, the second SCO recognized the need to transfer market research
responsibilities and had required the local staff to begin writing IMIs in fiscal year 1999. He
intended to increase writing responsibilities in the next fiscal year by also requiring local staff to
write ISAs. We support the SCO’s decision to shift some of the writing responsibilities because
we believe this is an effective vehicle for the local staff to thoroughly learn their industries and
develop key contacts. We encourage the new SCO to review this issue and make adjustments as
necessary. However, we note that the shift in writing responsibilities should be approached
realistically in consideration of the developing research and language capabilities of the local
staff. In the near future, it may be necessary to reduce the number of reports that the post
commits to produce, focus on topics relevant to best prospect industries, and shorten the ISAs.
US&FCS is currently conducting a test pilot project in select countries on shortening or
changing the format of ISAs. We encourage US&FCS Vietnam to participate, if appropriate.

Management will also need to pay attention to the workloads assigned to the FSNs. Adequate
industry coverage by the commercial assistants/specialists could be a potential problem in both
cities if business increases. At the time of our inspection, industry coverage was assigned to
only two FSNs and one PSC in Hanoi out of a total of 10 filled positions. In Ho Chi Minh City,
industry coverage was assigned to three FSNs out of a total of six filled positions. Other FSNs
were assigned to cover user fee programs including the Gold Key Service, Agent/Distributor
Service, and International Buyer Program. We believe it will be important for management to
ensure that the key industries in Vietnam are covered so that staff will be able to conduct
meaningful export counseling sessions, stay abreast of the latest developments within the
various industries, and advocate on behalf of U.S. companies. Responsibilities may need to be
shifted among the FSNs, and job descriptions adjusted to reflect actual duties.

Both Hanoi and Ho Chi Minh City need to make a serious attempt to continue building the
client management system (CMS) for Vietnam. CMS is a new database designed by US&FCS
to capture and manage client information in a standardized way worldwide. Although some
staff in both cities have been trying to input data on clients, post management has not stressed
the importance of building this database or set target deadlines for data entry or for reducing

                                                 12
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

data input backlogs. In Hanoi, staff simply have not made CMS a priority in their work. In Ho
Chi Minh City, where the office owns a business card scanner with software database features,
some staff see little benefit in keying the already-scanned data into CMS. Others, notably the
receptionist, try to remain productive during slower periods by inputting backlogs of contact
information. If data entry of contact or client information is a priority, US&FCS officials need
to send a clear signal to staff to input such data, and should provide a data transfer or conversion
path to CMS databases from the business card database currently in use by US&FCS Ho Chi
Minh City.



US&FCS agreed with our fourth, fifth, and sixth recommendations in this section and has
already taken steps to address our concerns. The SCO will begin training the staff on writing
ISAs in FY 2000 and require all market research reports (IMIs and ISAs) to be written in-house
in FY 2001. The new SCO has also shifted some responsibilities among the staff and has
assigned at least one industry sector to each commercial specialist, assistant, and clerk. Each of
these staff members will also be assigned responsibility for Gold Keys, Agent Distributor
Services, Trade Opportunity Programs, and business counseling in their respective industry
portfolios.

US&FCS Vietnam has also made data entry into the new client management system a priority
now that four staff members have been trained on the new system. The post reports that over
2,500 entries have been entered into the system.




                                                13
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

II.    Greater Cooperation Is Needed in Partnering Efforts

A.     US&FCS Vietnam has effectively leveraged local trade organizations

US&FCS has developed good working relationships with Vietnamese partner organizations in
both Hanoi and Ho Chi Minh City, and has leveraged these organizations to help it implement
its program. In Hanoi, US&FCS has partnered with the Chamber of Commerce and Industry of
Vietnam, the only national independent, non-governmental association of Vietnamese business
enterprises. VCCI has its own budget and promotes trade, investment, and business activity in
Vietnam while representing the Vietnamese business community and serving as a forum for
exchange of information and ideas between business enterprises and the Vietnamese
government. US&FCS has relied on VCCI to help schedule meetings between representatives
of U.S. businesses and representatives of various Vietnamese businesses and government
agencies.

In Ho Chi Minh City, US&FCS has partnered primarily with the Foreign Trade Development
Center, an organization of the People’s Committee of Ho Chi Minh City, which serves as the de
facto ruling authority in the region. FTDC, an extension of the official ruling party, serves as
the official trade promotion arm of the Ho Chi Minh City government.

US&FCS has relied on FTDC to assist in arranging appointments for both U.S. government and
business representatives. FTDC has also recruited Vietnamese business representatives to
participate in the International Buyer Program and the post’s local Business USA Seminar
series. In developing its relationship with FTDC, US&FCS has overcome differences in the
cultural attitudes and commercial objectives between the staffs of US&FCS and the Vietnamese
organization. For example, when US&FCS approached FTDC with the Business USA Seminar
idea in 1998 and wanted to distribute copies of the Thomas Register to all seminar participants,
FTDC officials initially felt that it would be better if Vietnamese businesses would approach
FTDC individually to obtain the information available in the registry. FTDC argued that this
would avoid situations of Vietnamese companies being potentially overwhelmed with the
amount of data within the registry. US&FCS officials succeeded in persuading FTDC that the
objective of disseminating information about U.S. businesses outweighed the risk that some
Vietnamese businessmen might feel overwhelmed, and that such businessmen could be trusted
to request assistance from FTDC or US&FCS when they felt it was needed.


B.     Implementation of the US&FCS-State of Florida joint partnership needs improvement

US&FCS entered into a memorandum of understanding (MOU) in 1998 with representatives of
the State of Florida to form a trade promotion partnership for the purpose of establishing a state
presence in Vietnam and to support export trade between Florida and Vietnam. While a
contractor was hired by US&FCS in January 1999 to support that partnership and the
memorandum of understanding was renewed this past July, US&FCS’s implementation of that
partnership needs improvement.



                                                14
U.S. Department of Commerce                                                          Final Report IPE-11798
Office of Inspector General                                                                     March 2000

The partnership is intended to promote Florida exports while also taking the steps necessary to
establish a representative office, independent of US&FCS, for the state within two years.
According to US&FCS and State officials, the contractor is supposed to spend about 25 percent
of his effort on tasks directed by US&FCS, justifying in part US&FCS’s contribution of 25
percent of the total joint project cost. Based on the MOU signed in 1998, US&FCS contributed
approximately $16,139 of the total cost of $64,557 for the partnership.3

At the time of our May on-site inspection, the contractor had spent very little time on US&FCS-
directed activities. In the previous months, he had spent most of his time preparing for a major
cultural exchange event between Florida State University and Vietnam. The cultural event, a
choir tour, was atypical of what the contractor would normally be working on for the state, but is
not inconsistent with the joint project’s agreement. The immense amount of time the contractor
spent on the event, to the exclusion of work for US&FCS, illustrates that US&FCS may not yet
be getting a return on its investment in the partnership. Two officials involved in drafting the
original MOU pointed out that US&FCS would also benefit from the partnership to the extent
that it provided a boilerplate or a documented process of how other states or U.S. government
jurisdictions could register their own independent trade promotion offices within Vietnam.
While this remains an objective of the partnership, to date no milestones or action plans with
respect to that objective have been developed.

Separately, we found that while officials from
headquarters and the state had an understanding of the
objectives of the MOU, these objectives had not been
communicated to the SCO, Commercial Attaché, or
contractor in Hanoi. As a result, management at the
post did not have a clear understanding of the role of
the Florida representative or of the working
relationships between US&FCS’s program and that of
the joint project. While the State of Florida had
developed a specific work plan for its representative,
US&FCS did not have a specific work plan for the
representative other than his contract, which spelled
out core responsibilities. There also appeared to be
                                                           US&FCS Hanoi reception area in front of US-AEP (l)
some confusion within the embassy as to the role of and Florida (r) office doors.
the contractor. Some officials were unsure whether
the contractor was officially a representative of US&FCS, and thus also of the embassy mission,
or of the State of Florida. Lastly, the contractor did not receive the same level of support and
integration into the rest of the US&FCS office that other PSCs did, raising questions about how
effective the contractor could be for US&FCS in the event he was tasked with US&FCS-specific
trade promotion activity. For example, the contractor had not been provided access to
US&FCS’s computer network-based information databases (Lotus Notes, CMS, etc.) or
provided secretarial support (for US&FCS-specific activity).



        3
            The memorandum of understanding was renewed in FY 1999 after we completed our fieldwork.

                                                      15
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

To US&FCS’s and the contractor’s credit, representatives of U.S. businesses we spoke with in
Vietnam viewed the contractor as a member of the US&FCS team and observed no distinction
between the partnership’s and US&FCS’s mission. The personal relationships between the
contractor, the commercial officers, and the rest of the office staff appeared good. While
US&FCS is receiving partial reimbursement for office space that it previously had not been able
to fully use, it needs to take steps to ensure that it is getting full value out the joint project.
While the objectives of the MOU are spelled out, the new SCO needs to develop a specific work
plan for US&FCS’s joint efforts with Florida, including specific goals and objectives for at least
the 25 percent of the project costs that US&FCS is paying. US&FCS needs to ensure that the
individuals overseeing the management of the joint project incorporate activities that aim to
increase trade to Vietnam.



US&FCS agreed with our recommendation, but the arrangement with the State of Florida has
ended since the issuance of our draft report. US&FCS did, however, state that it will follow our
recommendation for any future arrangements it enters into.


C.     Other partnering efforts would benefit from better communication

US-AEP. US-AEP opened its office with US&FCS in early 1999, and is beginning to hire
additional staff. According to initial staffing reports, US-AEP planned to hire FSNs at grade
levels above any of those already on board for US&FCS. Whatever the US&FCS and US-AEP
justification for hiring more experienced FSNs than US&FCS has, there was a potential for
misunderstanding among current staff if the hiring decisions and resulting workload
assignments to US-AEP staff are not rational and well explained. In addition, since the US-AEP
director reports directly to a commercial officer of much lower pay, US&FCS must ensure that
the communication and chain of authority over program direction remain clear and responsive to
US&FCS priorities. Since our initial discussion of these issues with the post, US&FCS and the
Director for US-AEP Vietnam have agreed to hire US-AEP staff at grade levels commensurate
with those of current US&FCS FSNs.

Interns. During our inspection, it was brought to our attention that several summer interns
conducting market entry-related research for various Florida businesses had been barred from
the US&FCS Ho Chi Minh City facilities for lack of security clearances. Long-term visitors,
like the interns, to US&FCS facilities require security assurance checks requested through
US&FCS’s Office of Foreign Service Personnel (OFSP), although the regional security officer
with the State Department has the authority to also grant access to the facilities. An OFSP
representative informed us that it normally requires two weeks to process a security clearance.
However, US&FCS Ho Chi Minh City did not get the paperwork for the interns’ visit submitted
to OFSP before the interns arrived for their six-week visit.

US&FCS records indicate that the post initially thought the security office at the Consulate was
responsible for providing the security clearances. US&FCS assigned the interns to work in the


                                                16
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

“partner” offices, outside the security hard wall and in an area accessible to any other visitor
passing through the metal detector check point. When the regional security officer discovered
that the interns were working on the site, without clearances, she ordered the interns barred from
the premises. At the time of our inspection, the interns were working out of their hotel rooms
and, according to the post, did not receive their necessary cable clearances from OFSP until just
a couple of days before their internships were over. The post also recently reported that
although it had submitted requests for clearances to OFSP several weeks ago for additional
interns, it was still awaiting clearance cables on the eve of the other interns’ arrival. OFSP needs
to clarify and communicate procedures for posts to obtain the requisite clearances for interns,
and determine and address why the process has recently taken longer than 14 days.



US&FCS agreed with our recommendation that headquarters clarify and communicate
procedures for posts to obtain security clearances for interns, and address why the process has
taken longer than 14 days. US&FCS stated that all financial and administrative management
training sessions have included material on the recruitment and placement of interns.
Information on placement of interns abroad is also available on Lotus Notes in the US&FCS
operations manual. In the case of Vietnam, US&FCS explained that the post did not follow
proper procedures. In the future, OFSP will send periodic reminders on the policy and
procedures governing the program.




                                                17
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

III.   Weak Internal Control Systems Raise Concerns over the Use of Funds and
       Government Property

Internal control systems are organizational structures, operating procedures, and administrative
practices adopted by all levels of management to provide reasonable assurance that programs
and administrative activities are effectively carried out. The Federal Managers’ Financial
Integrity Act of 1982 requires managers to establish internal control systems to ensure that (1)
obligations and costs are in compliance with applicable law; (2) funds, property, and other
assets are safeguarded against fraud, waste, and abuse; and (3) revenues and expenditures
applicable to agency operations are recorded and accounted for.

The key standards of internal control systems developed by the General Accounting Office
include documentation, recording of transactions and events, authorization of transactions,
separation of duties, supervision, and accountability for resources. Our inspection at Hanoi and
Ho Chi Minh City reviewed internal controls over O&A and deposit funds including
transactions associated with these funds, such as time and attendance records, travel vouchers,
and user fee collections; expenses paid for administrative support services; and government
assets including use and accountability of property, such as cellular phones and vehicles. While
we found that some standards were being met at each post, we noted weaknesses that warrant
immediate attention.


A.     O&A funds are not adequately safeguarded against fraud, waste, and abuse

Each fiscal year, US&FCS Vietnam is allocated O&A funds based on the previous year’s
expenses and the coming year’s projected needs. All overseas posts are authorized funds for the
following categories: education allowance, administrative travel, residential and office short-
term leases, FSN and PSC salaries, furniture and equipment, representation, and direct program
support. In FY 1999, headquarters authorized US&FCS Vietnam $1.67 million for its O&A
expenses.

We reviewed whether controls were in place to ensure that obligations were in compliance with
law and funds were protected against waste. Our inspection found that US&FCS Vietnam has
developed excellent detailed financial systems to track O&A funds. However, the lack of
controls over how these funds are spent has left the post vulnerable to potential fraud, waste,
and abuse.

Excessive long distance phone calls are questionable

Telecommunication rates in Vietnam are expensive. For example, charges for overseas phone
calls to the United States average approximately $3.80 per minute. In FY 1998, post spent
approximately $119,542 for telephone tolls. We noted that excessive long distance telephone
calls were being made and questioned whether numerous calls were for official use and in the
best interest of the U.S. government.

For example, we calculated that Hanoi and Ho Chi Minh City spent a combined total of over
$16,000 to call a CompuServe Internet access number in the United States after Internet

                                               18
U.S. Department of Commerce                                                    Final Report IPE-11798
Office of Inspector General                                                               March 2000

accounts had been established with local Vietnamese providers. This practice continued up
until the time of our inspection. We also calculated that Ho Chi Minh City spent over $6,300 to
dial a CompuServe/AOL Internet access number during the period August-December 1998, after
local Internet accounts had been established.

While US&FCS states that the post needed the Internet accounts to communicate outside of
Vietnam when the office was first opened, we question why the accounts in the United States
were not discontinued after local Internet accounts were established and US&FCS’s
international telecommunications network was installed and operating in Vietnam. We also
question why the high costs of the repeated calls were not flagged on phone bills by the
certifying officers in Hanoi and Ho Chi Minh City or on the post’s fiscal plans by the Deputy
and Regional Directors for East/Asia Pacific in the Office of International Operations at
headquarters. It appears that the officials in Washington never verified the validity of the high
annual telephone expense during various visits to the post, but rather accepted the post’s annual
projections for budget purposes.

In addition to repeated long distance calls to Internet access numbers in the United States, we
noted questionable calls to “1-800” numbers (such calls still incur long distance tolls in
Vietnam), calls to U.S. residences, overseas calls that were made at odd hours considering the
time difference, and calls to countries that do not appear to be engaged in regional activities with
the post, including Czechoslovakia, India, Italy, the Netherlands, and Sweden. It appears that
the bills for most of these calls were approved and certified without being scrutinized or
questioned. Controls or verification processes appear to have not been followed since the post
was first established.

Upon our return from Vietnam, we tested some of the questionable phone numbers. We
discussed the telephone expenses with senior US&FCS management and sent a memo to the
Deputy Assistant Secretary for the Office of International Operations, dated July 15, 1999,
requesting certifications from all employees in Vietnam and officers who previously served
there within three weeks. For those employees who did make personal phone calls, we
requested arrangements be made to repay the government within two weeks from the date of the
certification, and that receipts documenting payment be provided to our office. Employees
reimbursed the U.S. Government approximately $10,400 in personal phones calls based on their
certifications. However, we still remain concerned with two of the certifications and unclaimed
calls to countries with which US&FCS Vietnam does not appear to be programmatically
engaged. We will continue to work with US&FCS management to resolve these issues.

In addition to the lack of controls, we noted that the first SCO rarely certified the telephone bills
over the course of his assignment. Instead, he delegated the responsibility to the Commercial
Attaché in Hanoi and the PCO in Ho Chi Minh City. When the second SCO arrived in August
1998, he began certifying payments for the telephone bills in Hanoi; however, the PCO
continued certifying Ho Chi Minh City’s bills. Shortly thereafter, the SCO recognized the high
charges US&FCS Vietnam was incurring for phone bills and began requiring his approval
before long distance calls were allowed. As a result of this action, monthly charges for overseas
calls decreased from $7,573 in January 1999 to $1,724 one month later. However, Ho Chi Minh
City’s charges began to increase again in March and April. As a result of internal controls not

                                                 19
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

being in place for a significant amount of time, we believe that funds were not used effectively
and were wasted. We believe that the new SCO needs to implement internal controls over the
use of the telephones, scrutinize monthly phone bills, and require employees to certify and pay
for all personal phone calls on a regular basis. It is also important that US&FCS officials in
Washington regularly monitor expenses and budget projections to flag those cases where abuse
or misuse may be a problem.



US&FCS agreed with our recommendation that the post implement controls over the use of the
telephones, scrutinize monthly phone bills, and require employees to certify and pay for
personal phone calls. The post claims that its phone bills have been high due to the lack of
Internet availability and the local phone company’s monopoly. The new SCO has instituted
measures to monitor long distance phone and fax calls. We are pleased that the new SCO has
taken steps to implement controls including requiring permission from a supervisor, be it a
Deputy SCO, PCO, or commercial officer. However, we point out that while requiring
permission from a supervisor is an important step, the new SCO needs to be aware that in the
past, a majority of the long distance phone calls were claimed by commercial officers. The SCO
needs to monitor use by the commercial officers as he is ultimately responsible for the funds.

O&A funds could be used more effectively

We reviewed other expenses to ensure O&A funds were being used effectively to enhance the
program. In doing so, we found instances where we believe management could make better use
of post funds, considering the current US&FCS budget situation. For instance, we noted that
both Hanoi and Ho Chi Minh City are spending O&A funds on weekly fresh flower
arrangements, totaling approximately $2,000 annually. US&FCS Hanoi is also spending O&A
funds to employ a second driver on a contract basis. Based on interviews conducted at the post,
it appears that the need for a second contract driver is questionable since most of the FSNs
prefer to drive their own motorbikes around town when conducting official business. The log
maintained by US&FCS Hanoi’s full-time driver shows that on average he makes only three to
four trips a day, primarily for the SCO and Commercial Attaché.

US&FCS Hanoi is also paying monthly charges for a CompuServe account in the United States
that it no longer needs or uses. Post officials explained that they had not had time to contact the
vendor to disconnect the account. US&FCS Ho Chi Minh City spent funds on individual
Internet accounts for a majority of the staff over a period of approximately eight months when
the post first opened. Eventually, post officials realized that only five or six accounts were
needed and were in the process of having some accounts terminated at the time of our
inspection. However, we noted that the post continued to pay for an Internet account for an
officer on a temporary duty assignment three months after he left. Lastly, we found that Ho Chi
Minh City is paying for a dedicated telecommunications line that connects the US&FCS facility
with the consulate; however, the line is not being used because the consulate has not turned on
the connector. A consulate official stated that after construction is completed on the new
facility, the consulate will address this issue. We believe that the new SCO needs to closely


                                                20
U.S. Department of Commerce                                                  Final Report IPE-11798
Office of Inspector General                                                             March 2000

monitor how O&A funds are allocated. Furthermore, given that the amounts in each year’s
detailed O&A budget are based primarily on prior-year levels, current allocations for US&FCS
Vietnam, particularly for telecommunications, may be significantly overestimated.



US&FCS agreed with our recommendation that the Regional Director for East Asia and Pacific
and the SCO need to manage operating and administrative funds more closely and be held
accountable for managing such funds. US&FCS acknowledges that the post’s budget has been
high in the past due to the opening of offices in Hanoi and Ho Chi Minh City and high
telecommunications expenses. Headquarters recognizes that the posts’ actions to establish
additional communication links, including personal Internet accounts in the United States that
we cited, was wasteful and that the post should have cut back on duplicate arrangements.
US&FCS has adjusted the FY 2000 O&A budget for post and will move toward a zero-based
budgeting approach in the next fiscal year. In the action plan, US&FCS should include a copy
of US&FCS Vietnam’s O&A budget for this fiscal year.

Processes surrounding some transactions may need to be changed

In reviewing transactions and the manner in which they are processed, we noted concerns that
need to be addressed. Specifically, we found possible misuse of the imprest fund in Hanoi and
balances not reconciling in Ho Chi Minh City. In Hanoi, the post has been paying the salary of
a temporary Gold Key assistant out of the imprest fund. Because this temporary employee
worked for US&FCS for an extended period of time, and the arrangement was more of an
employer-employee relationship, we believe she should have been on a PSC contract and paid
accordingly. US&FCS should only pay for services out of the imprest fund if the threshold is
under $500 and the agreement for the service does not constitute an employer-employee
relationship requiring constant supervision. We note that the Federal Acquisition Regulations
and Treasury Financial Manual prohibit the use of an imprest fund for paying PSCs. In the
future, US&FCS Vietnam needs to ensure that any contracts and arrangements for services are in
accordance with regulations and departmental policies.

It was brought to our attention that a driver, hired under a contract with a third party for driver
services, was regularly earning overtime pay for time clocked during lunch hours and occasional
late Friday evenings and weekends. We reviewed the contract, which states that daily working
hours are from 8:00 a.m. to 5:00 p.m. and a work week is 44 hours, from Monday to Saturday.
We reviewed the driver’s monthly time and attendance records from December 1998 to April
1999 and spot-checked the calculation of overtime pay for individual days and entire weeks.
We did not find any instances where the driver would have been accruing overtime for having
worked all day without taking breaks. In fact, even though the method the post used to tabulate
hours to calculate overtime payments to the driver changed throughout the time period, the post
consistently subtracted one hour from the hours worked each day when the driver had recorded
working the entire core day of nine hours. However, we did note that rarely did a workday pass
when the driver did not earn overtime pay, raising a question of whether the post has negotiated
a contract for driver services commensurate with its work schedule.


                                                21
U.S. Department of Commerce                                                  Final Report IPE-11798
Office of Inspector General                                                             March 2000

We also noted that the driver has regularly been granted overtime, frequently for Friday
evenings and weekends. However, due to the poor documentation maintained in the driver’s
log, we were unable to determine whether the overtime, regardless of how it was calculated, was
for official business (see section below on government property for additional information). We
suggest that the post follow the terms of the contract and only authorize overtime for official
business hours worked beyond the specified workday and on weekends. In addition, we point
out that, according to the Foreign Affairs Manual, O&A funds should not be used to pay
overtime when staff use the driver for home transportation and decide to stop for dinner or to
socialize. Furthermore, overtime shall not be paid out of O&A funds when officers use the
vehicle for other authorized personal use on the weekends including transportation to the airport
or for out of town journeys.

Lastly, we noted concerns with the time and attendance records. Specifically, we noted that the
former SCO was signing his own leave slips even though OFSP has notified foreign service
officers that they are not to sign their own leave slips. We also point out that on a few occasions
one or two FSNs have been asked to perform duties or run errands that appear personal. SCOs
should be reminded that they are not to sign their own leave slips, and officers should not
request FSNs to perform duties and errands that are personal.



US&FCS agreed with recommendations 11 through 14 in this section and has taken action to
address our concerns.


B.     Multiple systems used to track overseas collections do not reconcile

US&FCS provides a variety of products and services for sale to the public. The revenue and
expenses associated with the production and delivery of these user fee products and services are
treated separately from O&A funds, which are appropriated by the Congress. This trust fund
account is no-year money and cannot be commingled with any other funding authorization. In
accordance with OMB Circular A-25, goods or services provided by an agency for sale to
specific recipients should recover their costs; however, exceptions can be granted.

Although US&FCS, in conjunction with its parent agency, ITA, has never developed an
accounting system that could be used to determine whether user fee products and services
recover their costs, there are many other systems and processes in place to monitor this trust
fund account. However, the lack of controls over these funds as exhibited by the multiple
separate and irreconcilable systems used to track revenues and expenses of user fee products, as
well as the many steps involved in processing user fee deposits, can lead to unresolvable errors
and discrepancies in the data.

We attempted to reconcile revenue collected by US&FCS Vietnam for user fee products and
services, based on the multiple systems in place. The table below summarizes the total revenues



                                                22
U.S. Department of Commerce                                                                      Final Report IPE-11798
Office of Inspector General                                                                                 March 2000

collected by US&FCS Vietnam in FY 1997 and 1998, as reported by each tracking system. As
has been noted in several prior OIG reports, these systems do not reconcile.

        Total Collections for US&FCS Vietnam, by Fiscal Year and Tracking System
                                           Embassy of            Office of Trade Event            ITA’s Office of
                 US&FCS Vietnam
                                           Vietnam a/                Management                     Accounting

     FY 1997          N/A b/                 N/A b/                     $106,560                     $136,795

     FY 1998         $126,886                $70,198                    $107,698                     $147,900
       Notes:
                a/      The cashier at the embassy does not have access to receipts for the post’s credit card collections,
                        which were about $86,000 and $12,000 in FY 1997 and 1998, respectively.
                b/      Neither of these systems had been fully implemented and operational for the entire fiscal year.


Without a full and accurate accounting of data, neither US&FCS Vietnam nor ITA can
determine whether the post recovers its costs through goods or services sold in Vietnam, as
required by OMB Circular A-25. Nor can they verify whether all revenue collected was
deposited in the appropriate account at the Department of the Treasury.

For example, when US&FCS Vietnam deposits cash and checks collected from the sale of its
products and services with the embassy cashier, State’s accounting system does not distinguish
between deposits by agency. Instead, deposits from all agencies are recorded sequentially. As a
result, the embassy cannot generate a monthly report itemizing only US&FCS’s deposits, which
would provide the post with a tool to cross-reference weekly deposits. Even if State was able to
produce such a report, it still would not account for all revenue collected, because US&FCS
Vietnam collects revenue from credit cards, which is not accounted for by the cashier.

When US&FCS Vietnam accepts credit cards as a form of payment for its products and services,
it sends the credit card vouchers to the credit card company. The post never receives any
confirmation acknowledging receipt, either from the credit card company directly or through
ITA’s Office of Accounting. Again, without a confirmation from the credit card company, the
post cannot know if the revenue it collected was deposited in the appropriate trust fund account.

Although US&FCS Vietnam reports data to US&FCS’s Office of Trade Event Management in
headquarters, which tracks collections and obligations associated with user fee products and
services, neither US&FCS nor ITA recognizes this system as an official accounting system.
This system was designed and is administered primarily as a management tool, and does not
provide internal controls or tracking to verify that funds are deposited in the proper accounts. In
addition, ITA’s Office of Accounting does not conduct reconciliations on overseas deposits, as
we have found in previous OIG reports. The failure to attempt reconciliations on this trust fund
account has been cited as a material weakness during financial audits on ITA. Based on prior
OIG reporting and this inspection, we believe that this weakness needs to be addressed.




                                                         23
U.S. Department of Commerce                                                  Final Report IPE-11798
Office of Inspector General                                                             March 2000

C.     More supervision over ICASS is needed to ensure expenses are accurate

US&FCS Vietnam must pay a portion of the costs of administrative support services overseas
through the International Cooperative Administrative Support Services system. At most posts,
the services are provided by units of the State Department’s Administrative Section, such as the
personnel office, Budget and Fiscal Office, and General Services Office. The goal of ICASS is
to obtain quality services at the lowest cost, encourage use of the best and most economical
service provider, provide participating agencies with more of a voice in the administrative
decision-making process, provide a transparent system of cost-sharing and reimbursement for
services, and ensure user satisfaction. Our inspection reviewed US&FCS’s internal controls
over the management of and charges for ICASS services to ensure that expenditures were
accounted for and funds were protected against waste.

It is not unreasonable to expect large increases in overhead costs, like those captured in ICASS,
when an operation virtually doubles its staffing and office space as US&FCS Vietnam did
between 1997 and 1999. But, according to our interviews and review of US&FCS Vietnam’s
ICASS charges, it appears that the 154 percent increase in ICASS expenses for the post in
Vietnam during this period went largely, if not entirely, unscrutinized by US&FCS. There are
other numerous examples of charges that could probably have been avoided or adjusted if a
US&FCS official, knowing the right points in the ICASS process to raise objections or provide
supporting documentation to justify workload counts, had actively participated in the ICASS
process. For example, we noted that charges for financial management services increased from
about $14,000 to over $36,000 between FY 1997 and 1999 based on an increase in the
estimated number of vouchers processed quarterly from 189 in FY 1997 to 825 in FY 1999,
without US&FCS questioning these assumptions. While it is an acceptable practice to estimate
when determining the initial invoice for the fiscal year, adjustments should be made prior to the
issuance of the final invoice.

In our review of ICASS worksheets and workload distributions, we noted that the post has been
paying a portion of costs for personnel services based on vacant positions. In FY 1998, a
majority of the positions in Ho Chi Minh City were not filled during the fiscal year, yet the post
was billed as if services had been provided for these vacant positions. In FY 1999, the post was
also charged expenses on vacant positions. US&FCS is supposed to notify the service provider
of the dates positions are to be filled, and the service provider is supposed to make any needed
mid-year adjustments. However, it appears this has not taken place in the first two years of
implementing ICASS. US&FCS may have to inquire with the appropriate State officials on
what basis the service provider in Vietnam can disallow mid-year adjustments based on vacant
positions. We question why US&FCS paid for services based on vacant positions and why
adjustments were not made at the mid-year to account for changes in dates that the positions
would be filled.

In addition, we also discovered that in FY 1999, the post was charged a portion of costs for
services associated with building operations in Hanoi based on expenses anticipated for the new
collocated facility at the Rose Garden. We believe that the post should have questioned these


                                               24
U.S. Department of Commerce                                                     Final Report IPE-11798
Office of Inspector General                                                                March 2000

charges because US&FCS had not even considered or agreed to move to the new facility at the
time the invoice was issued.

In reviewing the ICASS invoices, we also found that the post is paying for services it is not
using. For example, US&FCS is paying for special telecommunication lines but not using them
to make long distance calls. These lines permit the post to place a long distance call back to a
central point in the United States (e.g., Maryland) free of charge and then connect the call to its
final destination at the appropriate rate, thereby greatly reducing overseas long distance tolls.
Given the high long distance telephone bills that US&FCS Vietnam has incurred in the past,
these lines should have been used for official business calls (see Section III A above). US&FCS
Vietnam is also paying for inventory services that it is not using (see section below on
government property for more information).

We also observed that the ICASS Council in Vietnam is not carefully scrutinizing the post’s
budget or getting actively involved with the service providers. The Council does not hold
regular meetings, nor has it formed working groups. Furthermore, Council members have not
done evaluations on the service providers to critique the quality of services received. The new
SCO should make a concerted effort to strengthen the ICASS Council and coordinate with the
ICASS Chairman to form working groups. Several ICASS representatives on the Council
remarked that they did not have enough time or training, they did not understand how ICASS
worked, or they saw little incentive or potential benefit to their program to put forth the effort to
review ICASS bills and assumptions.

US&FCS should not be paying unnecessary ICASS charges simply because the staff
responsible for ICASS oversight are too busy or untrained. Insufficient attention to ICASS
charges has been raised as a concern in nearly every OIG inspection of US&FCS’s overseas
operations since ICASS was piloted in FY 1997 and fully implemented in FY 1998. US&FCS
needs to hold posts accountable for avoiding unnecessary ICASS charges through their
participation in the ICASS process, for example, by scrutinizing expenses and verifying
workload cost assumptions. Officers who will be responsible for managing ICASS need to be
given the appropriate training to do so. Moreover, US&FCS needs to consider offering
incentives for officers to achieve savings through the ICASS process and provide guidance on
how posts can achieve ICASS savings. For example, US&FCS needs to consider how ICASS
savings might somehow be returned, at least in part, to the posts’ program budget for the offices
achieving the savings. US&FCS should also prepare and disseminate checklists of either
common lessons learned or critical steps taken thus far by officers or others in US&FCS who
have successfully reduced ICASS charges or kept them from growing.



US&FCS agreed with recommendations 15, 16, and 18 to (1) provide the Embassy’s Budget
and Fiscal Office with realistic dates that vacant positions are expected to be filled, as well as
request that adjustments in ICASS charges at mid-year be made if warranted, (2) hold posts
accountable for avoiding unnecessary ICASS charges through participation in the ICASS


                                                 25
U.S. Department of Commerce                                                  Final Report IPE-11798
Office of Inspector General                                                             March 2000

process, and (3) prepare and disseminate checklists of common lessons learned and critical steps
taken by posts that have successfully reduced ICASS charges.

With respect to recommendation 17 that headquarters consider whether and how ICASS savings
may be returned, at least in part, to the program budget of the posts achieving the savings,
US&FCS agreed but with reservations. US&FCS explained that the difficulties in creating
incentives to return ICASS savings to the post that generated them are numerous but stated that
it is considering setting up a reward schedule with specific criteria and a fixed dollar amount for
posts that achieve savings. While we recognize the complexity of determining ICASS cost
savings for each post due to the lag time in achieving savings, we believe that headquarters must
provide some incentive to posts to reduce charges. We request that in the action plan, US&FCS
elaborate on the reward schedule that it is considering implementing and when it intends on
implementing such a schedule.


D.     More controls over government property are needed

Internal controls are needed to ensure that government property is adequately safeguarded
against waste, loss, unauthorized use, and misappropriation. Our inspection reviewed controls
over residential and office inventory and other assets, including government vehicles and
cellular phones. We noted a lack of sufficient documentation on the vehicles, potential
unauthorized uses of the vehicles, unauthorized use of cellular phones, weaknesses in
accountability with respect to residential property, and potential waste of office inventory.

In Vietnam, the Chief of Mission permits officers to use government vehicles for transportation
to and from work. Officers pay $15 a month for this use; however, this monthly fee does not
include use of the vehicle on the weekends or for personal trips to the airport. Officers are
permitted to use a government vehicle on the weekends if they are traveling a reasonable
distance out of the city but they must pay all costs associated with the use. The State
Department’s General Services Office (GSO) does not permit use of a government vehicle on the
weekend for transportation in and around Hanoi or Ho Chi Minh City. Furthermore, the post’s
motor vehicle policy does not permit use of a government vehicle by a spouse for personal use.
Even though US&FCS owns and contracts for its own vehicles, US&FCS staff are subject to the
same rules as the rest of the embassy staff, as if US&FCS were sharing in the embassy’s motor
pool.

According to records reviewed at both US&FCS Hanoi and Ho Chi Minh City, neither post
completely fills out the drivers’ logs in accordance with the Foreign Affairs Manual (6 FAM
228.6). In particular, the purpose of the trip and whether the trip was for official business or
other authorized use is not recorded. Instead, only the name of the staff who used the vehicle is
recorded. Without complete documentation and justification, we could not verify whether
improper use was taking place but, based on interviews, documentation in the drivers’ logs, and
overtime records, we noted various trips that seem questionable, such as use of the vehicle late
at night, on weekends, and near holidays. In all situations when the vehicle and driver were
used on the weekends, US&FCS paid the driver’s salary plus overtime. According to records
reviewed, however, no payments have ever been made by officers or US&FCS staff for the use

                                                26
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

of the vehicle on the weekend, including trips to the airport and trips out of town. We identified
times when the former SCO’s wife used the vehicle during business hours for apparently
personal purposes.

In addition to the poor documentation noted on the drivers’ logs kept by the primary drivers in
Hanoi and Ho Chi Minh City, we observed that a driver log has not been established for the new
contract driver who was recently hired in Hanoi. US&FCS Vietnam is required to maintain
complete and accurate documentation on all vehicles, including those driven by contract drivers,
to ensure that unauthorized use of government property does not take place. Officials who used
the vehicles for personal purposes need to identify those instances and repay all costs associated
with each trip, in accordance with the motor vehicle policy of the embassy.

In addition to the lack of documentation on the vehicles and questionable uses of the vehicles,
we learned that the former SCO’s wife was using a government cellular phone purchased by
US&FCS Vietnam. The SCO claimed that Washington authorized spouses to use government
property for security reasons; however, we could not find anyone in Washington who ever
authorized this or who had knowledge of such an authorization. Although the spouse paid for
all phone calls made on the cellular phone, we believe that US&FCS needs a clear official policy
regarding such use. Absent such a policy or post-specific policy, foreign commercial officers
should not provide government-owned cellular phones to their spouses. If US&FCS
management believes that use of a government-owned cellular phone by a spouse or dependent
is warranted at some posts or in particular situations, then we suggest that a policy be distributed
worldwide indicating when it is appropriate to authorize such use.

Our inspection also noted weaknesses in accountability over residential property and potential
waste of office inventory in Ho Chi Minh City. To date, US&FCS Vietnam does not officially
keep track of residential property it purchases for officers; however, we did request and obtain a
listing while on-site. Although US&FCS headquarters does not mandate overseas posts to track
residential inventory, the Foreign Affairs Manual requires that all residential property be
tracked regardless of cost. The OIG has previously recommended that headquarters issue a
worldwide policy in accordance with the Foreign Affairs Manual, but US&FCS argued that it is
following the guidance of the Department’s inventory policy. We reiterate that the
Department’s policy does not address regulations governing foreign affairs agencies, such as
US&FCS. Regulations outlined in 6 FAM 220, “Personal Property Management,” require
residential property to be accounted for regardless of cost. During our follow-up, we met with
the Department’s Personal Property Division and a memo was sent to ITA notifying the bureau
of the need for US&FCS to comply with the regulations. As a result of the memo, ITA
requested a waiver from the State Department to waive the threshold for accountable property
for ITA and US&FCS’s overseas posts to $5,000.

We believe that waiving the threshold for accountable property to avoid tracking residential
property not only contradicts the regulations outlined in the Foreign Affairs Manual, but can
also pose accountability problems for US&FCS in the future. As it stands now, US&FCS is
unable to account for residential property it has purchased for officers’ homes. US&FCS, in
consultation with ITA, needs to issue an official policy notifying overseas posts of their


                                                27
U.S. Department of Commerce                                                  Final Report IPE-11798
Office of Inspector General                                                             March 2000

requirement to track residential property regardless of cost pursuant to FAM regulations. In
addition, US&FCS should provide guidance to overseas posts on acceptable expenditures for
residential property, including the purchase of decorative items.

During our inspection, we discovered that US&FCS is paying for inventory services under
ICASS that it is not using. GSO informed us that it is willing to conduct inventories of
residences, but to date, US&FCS has not requested GSO to do so. US&FCS should request that
official inventories of the residences be conducted in accordance with normal procedures and
when new items are added. Lastly, we noted that some household items worth less than $500
were purchased for officers’ homes using petty cash. The receipts for these household items
were turned into the embassy cashier when the US&FCS administrative assistant replenished the
imprest fund. However, GSO never received a copy of the petty cash receipts, which should
have been used to compile a comprehensive listing of residential inventory. US&FCS needs to
ensure that any household furnishings are accounted for regardless of whether they are paid for
with petty cash or a purchase order.

In reviewing office inventory, we found fairly new excess personal computers stored in an
empty office in the Ho Chi Minh City facility. Based on interviews at the post, we determined
that these computers were purchased during the fit-out in FY 1998. However, when a new
international network communication and database system (i.e., Lotus Notes) was installed in
Vietnam in fiscal year 1999 as part of a headquarters technology initiative, new computers had
to be purchased because the existing computers were not compatible with the new system.
Thus, the old computers were hardly used during their short time in service before they became
surplus. When we brought this to the attention of officials in US&FCS’s Office of Information
Services, they told us that they were unaware that new computers were sitting in storage in Ho
Chi Minh City and said that they could use these computers. Post management and the Office
of Information Services need to coordinate and ship the computers where they are needed. In
the future, US&FCS should implement controls to prevent uncoordinated purchases of
computers and software, particularly when there are Washington-based worldwide technology
initiatives underway.



US&FCS agreed with recommendations 19 through 25 in this section and has taken steps to
address our concerns. The post has established a drivers’ log and passengers are required to
sign the log after each trip. The post is also requiring individuals to identify and pay for non-
official trips in accordance with the Embassy’s motor-vehicle policy. Regarding
recommendation 21 that US&FCS prohibit the use of government-owned cellular phones by
non-US&FCS employees unless there is a policy authorizing such use, as in cases where
security is a concern, US&FCS has drafted a directive stipulating that dependents may be issued
cellular phones only for security reasons, and may use them only in the local calling area, not for
long-distance or other toll calls. We have received a copy of this directive and are very pleased
that OIO has taken steps to address our concerns about telecommunication expenses. In the
action plan, we request that US&FCS include a list of posts that meet the criteria for obtaining
cellular phones for dependents and who qualifies as a dependent.


                                                28
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

With respect to recommendation 22 that an official policy notifying overseas posts of their legal
requirements to track residential property regardless of costs and provide guidance to the posts
on acceptable expenditures, US&FCS indicated that it has sent new guidance to post requiring
the posts to maintain an inventory of all government-owned residential property, regardless of
cost. We are pleased that the Office of International Operations has taken this action and request
that a copy of the cable be included in the action plan. US&FCS has taken action on
recommendations 23-25.




                                               29
U.S. Department of Commerce                                                                 Final Report IPE-11798
Office of Inspector General                                                                            March 2000

IV.      Underutilized Space in Hanoi and Ho Chi Minh City Is of Concern

Since the opening of the two office facilities in Hanoi and Ho Chi Minh City, US&FCS has
incurred costs for excess office space. US&FCS headquarters initially planned for both facilities
to be “business centers,” which would offer office space to multipliers and U.S. businesses on
short-term arrangements. However, the potential market was not adequately assessed, and the
demand for office space from partners or U.S. businesses never materialized to justify
US&FCS’s decision to rent space beyond its own needs. In addition, neither headquarters nor
post management actively marketed the office space to potential partners or U.S. businesses.
More recently, in FY 1999, the State Department requested that US&FCS collocate its Hanoi
office with other embassy sections at a location closer to the embassy but away from the
downtown business district where US&FCS currently is. US&FCS’s initial decision to move
the office was based, in part, on the assumption that the move would reduce costs. We believe
that US&FCS can significantly improve the process for making similar decisions in the future.
The original relocation plan would have provided US&FCS with more space than it currently
was using or could justify. However, when we began to question the need for the additional
space, US&FCS staff renegotiated the office relocation arrangements with the State Department
and were able to reduce its space in the new facility, the Rose Garden. Even with this reduction,
the new Hanoi office will be somewhat larger than the present facility, and US&FCS may still
incur higher operating costs than had it stayed at its current downtown location because of the
added costs for common areas and State Department overhead charges.4


A.       Excess office space should be reduced

Since both US&FCS offices in Vietnam were originally designed to be “business centers,”
similar to a “commercial center,”5 each facility was procured and designed to have more space
than that needed for US&FCS staff. Headquarters intended on making the excess space
available to U.S. businesses and partner organizations on a cost-recovery basis through user
fees. However, no assessment of the market demand for such office space was ever carried out
to justify the need for excess space in each facility. US&FCS initially spent over $100,000 to
build-out the entire Hanoi facility and $130,000 to build out the entire Ho Chi Minh City
facility.6

         4
         At the time of our fieldwork, final cost figures were not available. However, the increase in space in
conjunction with the increased costs associated with this facility (e.g., charges under the ICASS lease plus separate
ICASS charges) will likely result in higher operating costs.
         5
          In accordance with Title IV of the Jobs Through Exports Act of 1992, US&FCS opened four commercial
centers in Brazil, Indonesia, China, and South Africa under ITA’s Big Emerging Markets strategy. The purpose of
the centers was to provide additional resources, including office space for partners and short-term business tenants,
on a user fee basis for the export promotion of U.S. goods and services.
         6
          In late 1998, US&FCS spent an additional $32,000 to renovate the Hanoi office because the original
space allocated for partners and U.S. businesses was underutilized. Space for partners was reduced while space for
US&FCS staff was increased.


                                                         30
U.S. Department of Commerce                                                 Final Report IPE-11798
Office of Inspector General                                                            March 2000

Until FY 1999, neither headquarters nor post management actively marketed the Hanoi facility
to potential partners. However, in FY 1999, US&FCS was able to get the U.S.-Asia
Environmental Partnership Program to set up its office in the Hanoi facility. In addition,
US&FCS entered into a joint project with the State of Florida in which the state representative
began occupying some of the other designated partner space. Despite US&FCS’s recent
attempts to fill partner space, the Hanoi office still has excess space. At the time of our
inspection, approximately one-fifth of the total floor space–four small offices–was not being
utilized and probably would have remained empty considering the unlikelihood that Hanoi
would need to hire additional staff.

In Ho Chi Minh City, approximately one-third of
the entire floor plan–four large offices and one
small office–is empty. Since the opening of the
facility, neither post management nor headquarters
has actively marketed the partner space in Ho Chi
Minh City, and there are no future plans to do so.
In fact, some post officials expressed an interest in
using some of the partner space as a commercial
library/information center, although headquarters is
trying to move away from supporting commercial
libraries. We believe that both post management
and headquarters officials should first attempt to
                                                      US&FCS Ho Chi Minh City office interior
market the empty office space in Ho Chi Minh City
to partners and multipliers. Any remaining excess space should be reduced as soon as possible.



US&FCS agreed with our recommendation but with reservations. US&FCS acknowledges that
it must make the most effective use possible of the space it leases for reasons of economy and
practicality. In the situation of Vietnam, US&FCS states that the offices were designed from a
medium- to long-term perspective and on the assumption that expansion would continue in the
region. The agency claims that the excess space may be needed if a bilateral trade agreement is
signed this year. In the meantime, US&FCS states that it will make every effort to find partners
to occupy the excess space in Hanoi and Ho Chi Minh City.

We reiterate our recommendation that US&FCS determine and document the likelihood that full
costs can be recovered from partners or others on a user-fee basis when making decisions to
lease additional office space, and that the existing empty space in Ho Chi Minh City be
marketed or reduced. In the action plan, US&FCS should provide us with a status report on its
efforts thus far to find partners for Hanoi and Ho Chi Minh City.


B.     US&FCS needs guidelines for justifying future office moves

In September 1998, the U.S. Ambassador to Vietnam asked US&FCS to move its Hanoi office
from the downtown business district to a building closer to the embassy. The Ambassador

                                               31
U.S. Department of Commerce                                                  Final Report IPE-11798
Office of Inspector General                                                             March 2000

wanted to collocate multiple agencies, including US&FCS, the Foreign Agricultural Service, the
U.S. Information Service, consular affairs, and others, closer to the embassy. The new facility,
located in a dual commercial and residential building named the Rose Garden, is on the outskirts
of town some distance from the downtown business district. Although US&FCS initially
hesitated to accept the proposal, it did agree to move on the basis that it would save significant
costs while at the same time increasing its office space. US&FCS told the State Department of
its decision to move in a January 1999 cable.

We understand the potential advantages of collocating U.S. agencies in one facility, but we
believe the process used by US&FCS to reach its decision to move can be improved. For
example, US&FCS should have a better process for determining its future space requirements
and should have assessed the move’s impact on its clients.

US&FCS had originally approved plans to lease 448 square meters in the Rose Garden–an
increase of 60 percent over its current space. However, there was no basis for such a large
amount of space given that the current facility is underutilized and future increases in staff do
not seem likely. After we met with both US&FCS and embassy personnel, US&FCS asked if it
could reduce its new space allocation. The State Department agreed to reduce the amount of
space for US&FCS to 370 square-meters–still a 28-percent increase over current space. In July,
we continued to raise questions about the move and the need for excess space. When US&FCS
finally re-approved its move decision, it requested that every effort be taken to reduce its space
allocation in the Rose Garden to no more than 310 square meters, a figure that State agreed to.

US&FCS officials assumed they would save money based on lower lease costs at the Rose
Garden but did not have a good understanding of how the lease would be structured or the total
build-out costs that would be charged to them. Moreover, they never knew of State’s intention
to make the lease an ICASS lease until late in the process, or of the added costs associated with
such a lease. It still remains unclear what additional charges may be billed to US&FCS for the
use of common areas or services at the Rose Garden, or to make the building comply with
security requirements. The new SCO will need to closely monitor ICASS charges each year to
ensure that US&FCS is paying an appropriate amount of its share for the common areas at the
Rose Garden. Appendix II provides a summary of some of the known costs and illustrates that
if US&FCS had not decreased the amount of space it will occupy at the Rose Garden, the
relocation would have been very costly and unjustifiable on the grounds of projected cost
savings.

In the future, US&FCS headquarters needs to conduct a more thorough analysis when deciding
whether to relocate its facilities. Such proposals should be carefully evaluated to determine both
the program and financial costs associated with relocating an office. US&FCS should make sure
it has reliable, comprehensive, and independent data in order to make an informed decision. If
more than one option exists, relevant and comparable data should be collected and the pros and
cons of each option should be weighted carefully.

Furthermore, to the extent that factors such as location within the local market, amount of office
space, physical security, or other variables are important to US&FCS’s mission, they, too,
should be independently assessed before decisions about office relocation are made. US&FCS

                                                32
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

should develop standards for justifying future US&FCS office moves or new office locations,
and determine the appropriate responsibilities for the post and headquarters for meeting those
standards.



US&FCS agreed with recommendations 27 and 28 in this section. The new SCO will monitor
ICASS charges each year to ensure that US&FCS is paying an appropriate amount of its share of
the common areas at the Rose Garden. In the action plan, US&FCS should provide us with the
FY 2000 initial invoice for ICASS and any other documentation indicating US&FCS’s charges
under ICASS for the Rose Garden.

Lastly, US&FCS agreed that headquarters needs to provide more active involvement and
stronger oversight in all decisions relating to office relocations or expansion of existing office
spaces. The Office of International Operations intends to prepare a policy statement to the field
regarding criteria to be considered in deciding on an office move. The action plan should
include a copy of this policy statement.




                                                33
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

                                   RECOMMENDATIONS

We recommend that the Under Secretary for International Trade, and the Director General and
Assistant Secretary for US&FCS, take the steps necessary to:

1.     Increase the visibility of US&FCS Ho Chi Minh City in the local U.S. business
       community through more outreach and marketing (see page 10).

2.     Work with the Vietnamese government and consulate officials in Ho Chi Minh City to
       develop mutually acceptable terms for pre-screening International Buyer Program clients
       (see page 10).

3.     Develop a long-term plan for how U.S. commercial activity in regions outside the
       metropolitan areas of Hanoi and Ho Chi Minh City will be promoted and supported in
       the future (see page 10).

4.     Transfer more of the market research responsibilities from private contractors to foreign
       service nationals and adjust reporting requirements, as needed (see page 12).

5.     Ensure that the key industries in Vietnam are covered, by shifting responsibilities among
       FSNs and adjusting job descriptions, as needed (see page 12).

6.     If data entry of contact or client information is a priority for US&FCS, direct staff to key
       in such data, and provide a data transfer or conversion path to Client Management
       System databases from the business card database currently in use by UC&FCS Ho Chi
       Minh City (see page 12).

7.     Ensure that the US&FCS-State of Florida joint partnership is provided the tools,
       guidance, and other management oversight necessary for US&FCS to receive its 25
       percent share of the benefits from the project. If this benefit is not measured by the
       contractor’s allocation of time, then it should be demonstrated through the use of
       US&FCS-specific milestones or performance indicators (see page 14).

8.     Clarify and communicate procedures for posts to obtain the requisite security clearances
       for interns, and determine and address why the process has recently taken longer than 14
       days (see page 16).

9.     Ensure that US&FCS Vietnam implements internal controls over the use of the
       telephones, scrutinizes monthly phone bills, and requires employees to certify and pay
       for all personal phone calls (see page 18).

10.    Ensure that the Regional Director for East Asia/Pacific and the Senior Commercial
       Officer in Hanoi manage operating and administrative funds more closely and are held
       accountable for managing such funds. In addition, the operating and administrative



                                                34
U.S. Department of Commerce                                                  Final Report IPE-11798
Office of Inspector General                                                             March 2000

       budget should be reviewed and adjusted to ensure that funds are utilized effectively to
       meet top priorities and allocated appropriately (see page 18).

11.    Ensure that any contracts and arrangements for services, such as temporary assistants
       hired to help with Gold Key Service, are in accordance with regulations and
       departmental policies and the appropriate method of payment is used (see page 21).

12.    Ensure that the terms of the driver’s contract in Hanoi are adhered to and authorize
       overtime only for hours worked beyond the specified workday and on weekends that is
       for official business (see page 21).

13.    Require the Senior Commercial Officer to submit his leave slips to his supervisor at post
       for authorization (see page 21).

14.    Prohibit officers from requesting foreign service nationals to perform personal duties and
       errands (see page 21).

15.    Provide the Embassy’s Budget and Fiscal Office with realistic dates that vacant positions
       are expected to be filled and request that adjustments in ICASS charges at mid-year be
       made if warranted (see page 24).

16.    Hold posts accountable for avoiding unnecessary ICASS charges through their
       participation in the ICASS process, for example, by scrutinizing the expenses charged to
       US&FCS and verifying workload distributions (see page 24).

17.    Consider whether and how ICASS savings might be returned, at least in part, to the
       program budget of the posts achieving the savings, and implement acceptable options, if
       any (see page 24).

18.    Prepare and disseminate to US&FCS posts worldwide checklists of common lessons
       learned and critical steps taken by posts that have successfully reduced ICASS charges or
       kept them from growing unnecessarily (see page 24).

19.    Maintain complete and accurate documentation on use of all government vehicles and all
       drivers to ensure that unauthorized use of government property does not take place (see
       page 26).

20.    Require persons who used US&FCS vehicles or drivers for personal use to identify those
       instances and repay all costs associated with each trip in accordance with the embassy’s
       motor vehicle policy. (see page 26).

21.    Prohibit the use of government-owned cellular phones by non-US&FCS employees
       unless there is a policy authorizing such use, as in cases where security is a concern (see
       page 26).


                                               35
U.S. Department of Commerce                                                   Final Report IPE-11798
Office of Inspector General                                                              March 2000

22.    Issue an official policy notifying overseas posts of their legal requirement to track
       residential property regardless of cost and provide guidance to overseas posts on
       acceptable expenditures for residential property (see page 26).

23.    Request that the Senior Commercial Officer task the General Services Officer for an
       official accounting of residential property US&FCS Vietnam has purchased (see page
       26).

24.    Ensure that any household furnishings are accounted for regardless of whether they are
       paid for with petty cash or a purchase order (see page 26).

25.    Implement controls to prevent uncoordinated purchases of computers and software,
       particularly when there are Washington-based worldwide technology initiatives
       underway (see page 26).

26.    Determine and document the likelihood that full costs can be recovered from partners or
       others on a user fee basis when making decisions to lease additional office space.
       Market the existing empty partner space in Ho Chi Minh City or reduce the space (see
       page 30).

27.    Require the new SCO to closely monitor ICASS charges each year to ensure that
       US&FCS is paying an appropriate amount of its share for the common areas at the Rose
       Garden and that only appropriate costs are being distributed to US&FCS’s ICASS
       invoice (see page 30).

28.    Provide active involvement and stronger oversight by headquarters in all decisions to
       relocate or expand existing overseas offices or to acquire new office space. Develop
       standards for justifying future US&FCS office moves or new office locations, and
       determine the appropriate responsibilities for the post and headquarters for meeting those
       standards (see page 30).




                                                36
U.S. Department of Commerce                                               Final Report IPE-11798
Office of Inspector General                                                          March 2000

                                          Appendix I

                                          Acronyms

AmCham                 American Chamber of Commerce
ASEAN                  Association of Southeast Asian Nations
CMS                    Client Management System
Ex-Im Bank             U.S. Export - Import Bank
FAM                    Foreign Affairs Manual
FSN                    foreign service national
FTDC                   Foreign Trade Development Corporation
GSO                    General Services Office
ICASS                  International Cooperative Administrative Support Service
IMI                    International Market Insight
ISA                    Industry Sector Analysis
ITA                    International Trade Administration
MOU                    Memorandum of Understanding
O&A                    Operating and Administrative
OFSP                   Office of Foreign Service Personnel
OIG                    Office of Inspector General
OIO                    Office of International Operations
OPIC                   Overseas Private Investment Corporation
PCO                    principal commercial officer
PSC                    personal services contract
SCO                    senior commercial officer
TDA                    U.S. Trade and Development Agency
US-AEP                 U.S.-Asia Environmental Partnership
US&FCS                 U.S. and Foreign Commercial Service
VCCI                   Chamber of Commerce and Industry in Vietnam




                                              37
          U.S. Department of Commerce                                                                         Final Report IPE-11798
          Office of Inspector General                                                                                    March 2000

                                                                 Appendix II

                           Cost Summary of Various US&FCS Hanoi Relocation Options
                                                                                        Analysis Assumptions a/

                                                                                 Rent                          Other       Estimated Nine-Year
                             Proposed      Estimated                          Increase or     Change in       ICASS        Total Costs ($000s)
                              Space         Fit Out                            Decrease         ICASS        Charges
                                (sq.          Cost           Duration             at          Overhead          for           Low         High
 Options                      meters)       ($000s)          of Lease          Renewal        for Office     Common
                                                                                                 Space       Services

 Remain at current location (Central Building)
     No renegotiation b/        280              0         undetermined          none            none             none       1,935          b/

     Renegotiate Current        280              0            7 years         decrease d/        none             none       756            790
        Lease c/

 Move to Rose Garden

         October 1998           448            120         undetermined          initial         up to a     unknown           918           998
          proposal                                                             decrease           10%        new costs        plus          plus
                                                                               with 20%         increase     at time of    unknown       unknown
                                                                              increase in                   proposal e/    common        common
                                                                                year 8                                      costs e/      costs e/

     July 1999 proposal         370             48        9 years (initial       initial         up to a     unknown           707           928
                                                          3-year period /      decrease           10%        new costs        plus          plus
                                                          two additional      with built in     increase     at time of    unknown       unknown
                                                          3-year periods)    increases f/                   proposal e/    common        common
                                                                                                                            costs e/      costs e/

     July 1999 agreement        310             48 g/     9 years (initial       initial         up to a      unknown          600          785
                                                          3-year period /       decrease          10%        new costs        plus         plus
                                                          two additional      with built in     increase      at time of   unknown       unknown
                                                          3-year periods)     increases f/                   agreement     common        common
                                                                                                                   e/       costs e/     costs e/


Notes:
a/    The total cost of various combinations of assumptions was calculated, and only summaries are presented here.
b/    The current lease at the Central Building expired on January 2000. US&FCS and State officials used this option as a benchmark to calculate
      cost savings in the justification for the initially proposed Rose Garden option. No analysis of varying assumptions was carried out for this
      option. However, this was never a realistic option for benchmark purposes since the per square-meter rental cost of the current lease ($64
      per sq. m )is over twice what it can reportedly be renegotiated to, given current real estate market rates and new lease rates in the Central
      Building.
c/    Figures are based on e-mail exchanges between US&FCS Vietnam and headquarters.
d/    The SCO, at the time of our inspection, believed that the landlord would renegotiate the current lease at a more favorable rate of $25 per
      square meter based on rates other building tenants had received. At the end of the renegotiated 7-year lease, it was assumed that a new
      Central Building lease would include a 20% increase in the rental rate. This increase is figured into years 8 and 9 of the estimated 9-year
      total cost.
e/    ICASS overhead is intended to capture ICASS-related personnel costs as well as charges for common areas. Costs for common areas such as
      security, food pantry, restrooms, reception area upkeep, conference room, etc. are not factored into the 10% increase in overhead because
      they are not known yet.
f/    According to State officials, rent increases at each 3-year renewal period would be capped at 20 percent.
g/    State officials have indicated that additional design costs may be incurred.



                                                                        38
